U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                          U.S. PATENT AND
                       TRADEMARK OFFICE

                Patent Examiner Hiring Process
                           Should be Improved



Final Inspection Report No. BTD-14432-2-0001/March 2002




                              PUBLIC
                              RELEASE



             Office of Audits, Business and Trade Division

